HHS/OIG-Audit--"Review of Administrative Costs Claimed by the Florida Medicaid Agency for School-Based Health Services, (A-04-00-02160)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Administrative Costs Claimed by the Florida Medicaid Agency for School-Based Health Services," (A-04-00-02160)
March 22, 2001
Complete
Text of Report is available in PDF format (3.04 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The State agency developed a guide which offers some controls over the claiming of administrative costs. However, the
administrative costs claimed by the State agency, as reported by the local school districts, still included unallowable
costs, unsupported costs, and costs based on improper documentation. We found problems at the four school districts we
visited, and believe similar problems could exist at the other school districts because of a lack of program oversight.
We did not determine the financial effect of our findings, however, we believe our findings indicate that better controls
are needed to provide assurance that costs claimed for Federal reimbursement are proper. We are recommending that the State
agency establish controls to more closely monitor the administrative costs claimed by the school districts, including performing
more on-site reviews at the school districts. The State agency generally agreed with our findings and recommendations.